Social Security Administration
 Office of the Inspector General




        Strategic Plan
        Fiscal Years 2011 - 2015

          Revised December 2013
A MESSAGE FROM THE INSPECTOR GENERAL OF SOCIAL SECURITY
                                 It is my pleasure to introduce the Office of the Inspector General's (OIG)
                                 Strategic Plan for FYs 2011 through 2015. The Plan reflects our vision,
                                 values, goals, objectives, and responsibilities for the next five years. The
                                 Plan is a management tool that will help us focus on outcomes critical to
                                 achieving OIG goals. We are confident the Plan will guide us in successfully
                                 attaining these goals.

                                   We track our progress toward success by way of 15 performance measures,
                                   which operate within a framework set by three overarching goals: Impact,
                                   Value, and People. These measures were developed in light of our
                                   responsibility to address critical issues such as maintaining the integrity of
                                   the Social Security number, preventing improper payments, and protecting
                                   the Social Security Administration’s (SSA) critical infrastructure. The OIG
                                   also continually strives to foster an environment where employees can
realize their full potential through training, development, and a collaborative workplace.

While we have designed our Plan to be as adaptive as possible to changing circumstances, it is impossible to
know what unforeseen challenges we may encounter and what priorities may change during these five years.
Given that uncertainty, we will revise the Plan as necessary to accommodate internal or external
developments that affect the direction of our goals and objectives.

The successful execution of our Plan will be a measure of the efforts of this Office to accomplish our overall
mission: inspiring public confidence by detecting and preventing fraud, waste, and abuse in SSA's
programs and operations.

Our commitment to achieving excellence is echoed in our teamwork and quality-of-life work environment.
We believe that with this commitment we will attain the goals outlined in this Strategic Plan.



                                                Patrick P. O’Carroll, Jr.
                                                Inspector General
Table of Contents

Executive Summary.......................................................................... 1

Mission Statement............................................................................. 1
Vision and Values............................................................................. 2
General Goals.................................................................................... 2
Statutory Responsibilities.................................................................. 3
Strategic Planning Process................................................................ 4
Stakeholder Feedback ...................................................................... 4
Internal Factors Affecting the Achievement of Strategic Goals ...... 4
External Factors Affecting the Achievement of Strategic Goals ....                               5
Summary of Program Evaluations ..................................................                5
Goals, Strategies, and Measures........................................................ 5
Goal 1: Impact.................................................................................. 5
Goal 2: Value .................................................................................. 7
Goal 3: People.................................................................................. 10

Conclusion ………………………………………………………... 11

Appendices
Appendix 1 - OIG Organization........................................................ 12
Appendix 2 - OIG Organizational Chart........................................... 14
Executive Summary
Our Strategic Plan for Fiscal Years 2011 through 2015 conforms to the statutory responsibilities of the
Government Performance and Results Act of 1993 (GPRA) and the Inspector General Act of 1978, as
amended (IG Act). These Acts set the course for our Plan. Three general goals serve as the Plan’s overall
framework.

The first goal focuses on the impact we have on SSA’s programs and operations. All OIG components
are committed to improving SSA’s effectiveness and efficiency through our investigations, audits, and
legal activities.

The second goal reflects the value we provide to SSA, Congress, the American public, and other key
decision-makers by delivering timely and reliable products and services. It is imperative that we deliver
products and services that effectively meet the needs of our stakeholders. Therefore, we must integrate best
practice strategies and cutting-edge technology to maximize efficiency while providing a positive return on
investment to the public we serve.

The third goal includes strategies and self-measuring goals to enhance the work experience of our people,
who are the foundation of the OIG organization. A well-trained and motivated workforce is crucial to our
success. We believe our commitment to professional development and skills enhancement while sustaining
a quality-of-life work environment will return rewards of superior work efficiency and effectiveness.

To achieve these goals across the OIG organization, our Plan directs and targets crosscutting efforts. For
example, the Plan recognizes that data on potential SSA systems vulnerabilities maintained by the Office
of Investigations will also have value to the Office of Audit’s planning and analysis functions. In an
environment of limited resources, this integration of efforts is essential.

This Plan includes assessment tools that will gauge customer and employee satisfaction. The OIG's Office
of Quality Assurance and Professional Responsibility (OQAPR) will administer a tool that assesses the level
of external user satisfaction with OIG products and services. In addition, our Organizational Health
Committee (OHC) will administer an annual employee job-satisfaction survey to gather the views and
opinions of our employees on a variety of factors relating to the overall OIG work experience.

The goals, objectives, and performance targets under our Plan are designed to improve OIG and, by
extension, will assist SSA in attaining its own desired performance levels.

Mission Statement
By conducting independent and objective audits, evaluations, and investigations, we inspire public
confidence in the integrity and security of SSA’s programs and operations and protect them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to Administration
officials, Congress and the public.




                                                      1
Vision and Values
We strive for continual improvement in SSA’s programs, operations, and management by proactively
seeking new ways to prevent and deter fraud, waste, and abuse. We commit to integrity and excellence by
supporting an environment that provides a valuable public service while encouraging employee
development and retention and fostering diversity and innovation.


General Goals
The FY 2011 – 2015 Strategic Plan includes three general goals, each containing a series of crosscutting
strategies. We used these strategies to develop our 15 performance measures which support these goals.
For the general goals in the following chart, the strategies and associated self-measuring goals are described
in the Goals, Strategies, and Measures section beginning on page 5.


                          General Goals
                          Enhance the integrity, efficiency, and effectiveness of SSA
            Impact        programs and operations.

                          Provide quality products and services of value in a timely manner
                          to SSA, Congress, the American public, and other key decision-
             Value        makers while sustaining a positive return for each tax dollar
                          invested in OIG activities.


                          Promote a skilled, motivated, diverse workforce in a positive and
            People        rewarding work environment.


We accomplish these goals by:
   Investigating complaints from any person or entity, including Congress, while protecting the identity
      of whistleblowers.
   Reviewing existing and proposed legislation and regulations.
   Conducting audits and investigations of SSA programs and operations.

We communicate the results of our efforts by:
   Reporting violations of law to U.S. Attorney’s Offices and State and local prosecutors.
   Informing Congress and the Commissioner of Social Security of our findings and recommending
     corrective action when problems are identified.
   Submitting semiannual reports to Congress and the Commissioner of Social Security.




                                                      2
Statutory Responsibilities
On March 31, 1995, the SSA OIG was established pursuant to Public Law 103-296, known as the Social
Security Independence and Program Improvements Act of 1994. General OIG authority is established under
the IG Act, which provides statutory responsibility to protect the integrity of SSA programs and operations.
We are an independent and objective organization within SSA dedicated to preventing and detecting fraud,
waste, and abuse in SSA's programs and operations. We are guided by various statutory laws and
implementing regulations, as well as various policies and guidance regarding Federal law enforcement and
government auditing. The following chart describes some of the statutory laws affecting the environment in
which OIG carries forth its mission.


           LEGISLATION                  PROVISIONS IMPACTING OIG
                                        Requires Federal managers to identify weaknesses in programs and operations,
         The Federal Managers’
                                        take corresponding corrective actions, and report annually on management
      Financial Integrity Act of 1982
                                        controls.

                                        Requires assessments of SSA’s internal control environment to assure the
       The Chief Financial Officers
                                        issuance of reliable financial information and to deter fraud, waste, and abuse of
               Act of 1990
                                        SSA resources.

      The Government Performance        Requires the assessment of the internal control environment over SSA’s
         and Results Act of 1993        performance measures.

                                        Requires an assessment and an evaluation of the 1) reliability of SSA’s
      The Government Management
                                        performance data and 2) extent to which SSA’s performance plan meaningfully
           Reform Act of 1994
                                        describes its planned and actual performance.
                                        Denies Supplemental Security Income payments for fugitives and probation and
        The Welfare Reform Act of
                                        parole violators. Requires that we manage the partnership between SSA and
                  1996
                                        local law enforcement to identify and apprehend these individuals.

         The Federal Financial
                                        Evaluates agency’s financial systems compliance with Federal standards.
      Management Improvement Act
               of 1996
                                        Requires Inspectors General to provide a summary and assessment of the most
      The Reports Consolidation Act
                                        serious management and performance challenges facing Federal agencies and
                of 2000
                                        their progress in addressing them.

        The Federal Information
                                        Requires that OIG evaluate SSA’s overall information security program and
       Security Management Act of
                                        practices.
                  2002
                                        Requires annual reviews by OIG or SSA of programs to identify those
      Improper Payments Act of 2002
                                        susceptible to significant improper payments.

                                        Denies Old Age, Survivors, and Disability Insurance benefits and representative
      The Social Security Protection    payee status to persons fleeing prosecution, custody, or confinement after
               Act of 2004              conviction, and to persons violating probation or parole. Requires that we
                                        manage the partnership between SSA and local law enforcement to identify and
                                        apprehend these individuals.

                                                             3
Strategic Planning Process
The Government Performance and Results Act of 1993 (GPRA) requires Federal agencies to develop goals,
strategies, and performance indicators for gauging progress. A Strategic Planning Team comprised of OIG
headquarters and field personnel was established to develop this Plan. The Team was chartered to develop a
Plan that would be useful in every component throughout the organization. The Team:

      Examined the prior Strategic Plan.
      Reviewed the IG Act, GPRA and other relevant laws and regulations.
      Analyzed SSA’s Strategic Plan and Annual Performance Reports.
      Evaluated other Federal OIG goals and indicators.
      Developed crosscutting strategies.
      Suggested new goals, indicators, and target levels of performance.



Stakeholder Feedback
Our primary stakeholders include members of Congress and congressional staff; SSA’s Commissioner,
senior officials, managers, and staff; the Council of the Inspectors General on Integrity and Efficiency
(CIGIE) and the IG community at large; all OIG employees; and the general public. Other stakeholders
include the Government Accountability Office, the Office of Special Counsel, the Office of Government
Ethics, the Department of Justice, other Federal, State, and local law enforcement agencies, other outside
groups, both public and private, and other parties interested in improving the efficiency, effectiveness, and
integrity of SSA programs and operations. We meet periodically with stakeholders, particularly SSA
management officials, U.S. Attorneys, and congressional representatives and staff to obtain feedback on
our work.



Internal Factors Affecting the Achievement of Strategic Goals
For the Strategic Plan to succeed as a management tool, all OIG employees must embrace
and commit to this Plan. Major internal challenges include:

      Implementing unified leadership, commitment, and involvement to ensure effective
       execution of the Plan.
      Designing and implementing processes and technology needed to enhance information sharing.
      Adjusting to changing workload requirements and resource constraints.




                                                       4
External Factors Affecting the Achievement of Strategic Goals
External factors such as budget constraints, SSA’s ability to implement recommendations,
congressional and SSA priorities, and other mandates can affect the achievement of OIG strategic
goals. Additional factors include:
    Redirecting resources to address national security and public safety issues.
    Contracting for outside services with regard to the integrity and reliability of external auditors.
    Preventing fraud, waste, and abuse stemming from vulnerabilities in SSA’s online services.
    Competing with other organizations for skilled staff.


Summary of Program Evaluations
GPRA requires agencies to describe the program evaluations used to establish or revise general goals and
objectives. Although there were no formal internal or external program evaluations of OIG to consider in
developing this Plan, the Team evaluated several other sources of information, including:

      OIG Semiannual Reports
      OIG Congressional Budget Justifications
      CIGIE Annual Reports
      Results of Office of Audit CIGIE Peer Review
      Results of Quality Assurance Reviews
      Management information systems of individual OIG components
      SSA’s Strategic Plan



Goals, Strategies and Measures

Goal 1: Impact

Enhance the integrity, efficiency, and effectiveness of SSA programs and operations.
STRATEGIES

   1. Promote an OIG-wide process for cross-component communications on potential programmatic and
      operational vulnerabilities.

   2. Communicate with the Agency to identify mission-critical issues and operations that would benefit
      from OIG audit and investigation services and develop practical solutions to address identified
      weaknesses or deficiencies.

   3. Prioritize investigations, audits, and counsel actions to produce more efficient and effective SSA
      programs and operations.



                                                      5
Performance Measure 1.1

Maintain an annual acceptance rate of at least 88% for all audit recommendations.

   Definition: The number of legislative, policy, and regulatory recommendations accepted by SSA and/or
   Congress (included in proposed legislation) during the FY divided by the total number of
   recommendations with a management decision and legislative proposals made during the FY.

   Demonstrates: OIG’s ability to produce improvement ideas valued by SSA and Congress.
   Recommendations are contained in OIG Reports.
   Source: Office of Audit’s (OA) management information system


Performance Measure 1.2
Achieve a 5-year average implementation rate of 85% for accepted recommendations aimed at
improving the integrity, efficiency, and effectiveness of SSA.

   Definition: The total number of accepted recommendations implemented by SSA during the past 5
   FYs divided by the total number of recommendations SSA agreed to implement during the past 5
   FYs.

   Demonstrates: The impact of OIG recommendations on the integrity, efficiency, and
   effectiveness of SSA programs and operations.

   Source: OA’s management information system


Performance Measure 1.3
Ensure that at least 80% of all cases opened during the fiscal year directly relate to improper
payments within SSA’s Title II and Title XVI Programs.
   Definition: The total number of cases opened during the fiscal year that are directly related to the Title
   II or Title XVI programs divided by the total number of cases opened during the fiscal year. This
   performance measure relates to the Social Security Administration’s (SSA) Strategic Plan for Fiscal
   Years 2008-2013, Goal 4, Objective 1: Curb Improper Payments.
   Demonstrates: OIG’s focus on investigations that result in reducing fraud, waste, and abuse.
   Source: National Investigative Case Management System (NICMS)




                                                      6
Performance Measure 1.4
Achieve a successful conclusion on at least 75% of all Title II and Title XVI cases closed during
the FY.
   Definition: The number of closed Title II and Title XVI cases successfully concluded during the FY
   divided by the total number of Title II and Title XVI cases closed during the FY. A successful criminal
   conclusion occurs when a subject either pleads guilty or is convicted, or accepts pre-trial diversion or
   probation before judgment. A successful civil conclusion occurs when a subject either pleads guilty or is
   convicted, or when the Office of Counsel to the Inspector General (OCIG) accepts a Civil Monetary Penalty
   (CMP) referral resulting from Office of Investigation (OI) casework. A successful administrative conclusion
   occurs when SSA denies, terminates, suspends, recovers, or reduces a benefit; or removes a representative
   payee, based on an OI investigation.

   Demonstrates: OIG productivity in reducing fraud, waste, and abuse.

   Source: NICMS



Goal 2: Value

Provide quality products and services of value in a timely manner to SSA, Congress, the
American public, and other key decision-makers while sustaining a positive return for each
tax dollar invested in OIG activities.
STRATEGIES

   1. Maintain a “positive-return” culture within OIG.

   2. Ensure continual improvement of OIG products by using a product and service quality assessment
      instrument to measure internal and external user satisfaction.

   3. Implement best practices to ensure quality and timeliness of OIG products and services.

   4. Utilize information technology investments to enhance OIG work products and service delivery.

Performance Measure 2.1

Generate a positive return of $8 for every tax dollar invested in OIG activities.

   Definition: The total amount of all OIG savings identified during the FY divided by the total amount of
   appropriated funds during the same period.

   Demonstrates: The dollar value returned for each tax dollar invested in SSA OIG.

   Source: For SSA OIG data--Division of Budget and Logistics files, OA’s management information
   system, and NICMS.
                                                 7
Performance Measure 2.2

Evaluate and respond to 90% of all allegations received within 45 days.

   Definition: The total number of allegations closed or referred within 45 days during the FY divided by
   the total number of allegations closed or referred during the FY.

   Demonstrates: OIG’s ability to initiate timely action on allegations received.

   Source: NICMS


Performance Measure 2.3

Complete investigative fieldwork on 75% of all cases within 180 days.

  Definition: The total number of investigations closed or referred for prosecution, CMP, SSA or other
  State or Federal agency action within 180 days during the FY divided by the total investigations
  closed or referred during the FY.

  Demonstrates: The ability to conduct investigations in an efficient, timely manner.

  Source: NICMS

Performance Measure 2.4

Respond to 95% of constituent-based congressional inquiries within 21 days.

  Revised Definition: The total number of constituent-based congressional inquiries (inquiries made by
  Members of Congress on behalf of one or more named constituents) responded to during the FY within
  21 days of receipt divided by the total number of such inquiries responded to during the FY. Processing
  days are the calendar days elapsed from the OIG’s Office of External Relations’ (OER) receipt of such
  an inquiry to the date of the first response to the member of Congress.

  Demonstrates: OIG’s ability to provide a rapid response to congressional decision-makers.

  Source: OIG Control System and OER records.

Performance Measure 2.5

Take action on 90% of CMP subjects within 30 days of receipt.

  Definition: The total number of CMP subjects against whom initial action was taken within 30 days of
  receipt by OCIG during the FY divided by the total number of CMP subjects where action was taken
  during the FY.

  Initial action is defined as sending a letter to the subject either:

                                                        8
       (1)    Stating an intention to pursue a Civil Monetary Penalty, or
       (2)    Indicating that a CMP will not be proposed at this time, and directing the subject to SSA to
              make arrangements for repayment. (In cases where there is no overpayment, the case will
              simply be declined and either referred for administrative sanctions or closed, either of which
              also constitutes an initial action.)

  Demonstrates: The ability to identify and take timely action on CMP cases.

  Source: NICMS

Performance Measure 2.6

Achieve a positive external user assessment rating of 85% for product-service quality.

   Revised Definition: The OIG’s Office of Quality Assurance and Professional Responsibility, during
   each Quality Assurance Review, ask external customers to rate their level of satisfaction with the quality
   of OIG products and services. Recipients and users of OIG products and services include SSA and other
   Government entities, such as the Congress, Offices of U.S. Attorneys, and external law enforcement
   agencies. This rating, measured using a five-tier scale, is averaged for each Quality Assurance Review
   conducted during the Fiscal Year, and then translated into a percentage, with 85 percent indicating
   satisfaction.

   Demonstrates: The overall quality of OIG products and services as seen by their users.

   Source: Quality Assurance Review Assessment Questionnaire

Performance Measure 2.7

Issue 85% of final audit reports within 1 year of the entrance conference with SSA.

  Definition: The total number of audit reports issued during the FY within 1 year of the entrance
  conference divided by the total number of audit reports issued during the FY.

  Demonstrates: OIG’s ability to efficiently focus, plan, conduct, and report timely audit information.

  Source: OA’s management information system

Performance Measure 2.8

Complete 85% of requests for legal advice and review within 30 days.

  Definition: The total number of legal opinions, subpoenas, and audit reviews completed by OCIG
  within 30 days of receipt during the FY divided by the total number of requests for legal opinions,
  subpoenas, and audit reviews completed during the FY.


                                                     9
  Demonstrates: The ability to complete timely legal analysis of OIG products and to issue prompt
  legal guidance and support.

  Source: OIG Control System

Goal 3: People

Promote a skilled, motivated, diverse workforce in a positive and rewarding work
environment.
STRATEGIES
   1. Identify assignment interests and developmental needs of all employees.

   2. Provide OIG components with training and tools necessary to ensure professional development and
      skills enhancement.

   3. Maintain a proactive approach in recruiting and hiring candidates to meet different needs.


Performance Measure 3.1

Achieve an annual attrition rate of 5% or less.

  Definition: The total number of employees separated (excluding retirements and deaths) during the FY
  divided by the employees on board at the beginning of the FY.

  Demonstrates: OIG’s ability to provide a quality work experience that encourages staff to pursue their
  career goals within the SSA OIG.
   Source: OIG Staffing Data

Performance Measure 3.2

Conduct an annual employee job-satisfaction survey and implement corrective
action plans to identify areas where improvements are needed.

   Revised Definition: OIG’s Organizational Health Committee implemented an annual employee job-
   satisfaction survey beginning in FY 2006. The survey consists of 17 questions, 12 of which are used to
   determine the percentage. Our goal is to have an average score of 75 percent for the questions asked
   pertaining to employee job-satisfaction. Exceeding this goal demonstrates a high level of employee
   satisfaction.

   Demonstrates: That OIG’s quality work environment is attentive to the people, technology,
   communications, and other human capital factors influencing the job performance of its employees.

   Source: Annual employee job-satisfaction tool
                                                    10
Performance Measure 3.3

Ensure that 90% of OIG staff receives 40 or more hours of appropriate developmental and skill-
enhancement training annually.

   Revised Definition: The total number of current OIG staff on board at the beginning of the FY
   receiving at least 40 hours of training during the FY divided by the current OIG staff on board at the
   beginning of the FY.

   Demonstrates: OIG’s commitment to continual staff development and skill enhancement.

   Source: OIG Training Database




Conclusion
The Social Security Administration provides critical services to the American people during times of
economic prosperity and economic challenges. Whatever the path of the nation over the coming five years,
SSA stands as an anchor that tethers the American people to security, independence, and peace of mind. As
benefits paid begin to outpace revenues received, and record numbers of baby boom applicants turn to SSA
as they reach retirement age, SSA’s Office of the Inspector General must be more diligent than ever in
improving SSA’s efficiency and efficacy, and in protecting SSA’s programs from fraud, waste, and abuse.

To accomplish this, we will maintain a focus on persistent management challenges like the disability
backlog and SSA’s information technology systems, as well as on high-priority investigations, such as those
targeting disability applicants who seek to receive benefits fraudulently and organizational representative
payees that misuse their clients’ much-needed benefits.

We are confident that with the necessary resources, our list of audit and investigative accomplishments will
grow and benefit SSA and the American public. As this Strategic Plan states, we will continue to work with
SSA and Congress to strengthen the programs that provide timely and accurate benefits to the American
public who rely on them.




                                                    11
Appendix 1 - OIG Organization
OIG Organization

The SSA OIG was established on March 31, 1995, pursuant to the Social Security Independence and
Program Improvements Act of 1994. The OIG serves as the oversight arm of SSA, comprised of about 600
employees who conduct independent audits, evaluations, and investigations of SSA’s programs and
operations. The OIG’s responsibilities are to promote economy, efficiency, and effectiveness in the
administration of SSA programs; to detect and prevent fraud, waste, and abuse in SSA programs and
operations; and to inform SSA and Congress about problems and deficiencies and recommend corrective
action. In doing so, the OIG inspires confidence in SSA’s programs and provides useful information to
Administration officials, Congress, and the public. OIG is comprised of six components: The Immediate
Office of the Inspector General (IO), Office of Audit (OA), Office of the Counsel to the Inspector General
(OCIG), Office of Technology and Resource Management (OTRM), Office of Investigations (OI), and the
Office of External Relations (OER).

Immediate Office of the Inspector General

The Immediate Office (IO) provides the Inspector General and Deputy Inspector General with staff
assistance on the full range of their responsibilities. The IO also administers a comprehensive Professional
Responsibility and Quality Assurance program as well as Quality Control programs that ensure the
adequacy of OIG compliance with its policies and procedures, internal controls and professional standards.
In addition, the IO oversees the Organizational Health Committee (OHC). The purpose of the OHC is to be
an agent of positive change by discussing, evaluating, and presenting to senior management employee issues
and proposed solutions that affect the operations, administration, and efficiency of OIG. In doing this, the
committee acts as a representative of all OIG employees.

Office of Audit

The Office of Audit (OA) conducts and/or supervises comprehensive financial and performance audits of
SSA's programs and operations and makes recommendations to ensure that program objectives and
operational functions are achieved effectively and efficiently. Financial audits, required by the Chief
Financial Officers' Act of 1990, assess whether SSA's financial statements fairly present the Agency's
financial position, results of operations, and cash flow. Performance audits review the economy, efficiency,
and effectiveness of SSA's programs and operations. OA also conducts short-term management and
program evaluations focused on issues of concern to SSA, the Congress, and the general public.
Evaluations often focus on identifying and recommending ways to prevent and minimize program and
operational fraud, waste, and abuse, as well as inefficiency and ineffectiveness.

Office of the Counsel to the Inspector General

The Office of the Counsel to the Inspector General (OCIG) provides independent legal advice and counsel
to the Inspector General and senior staff on a wide range of issues, including statutes, regulations,
legislation, procurement, contract, appropriations, computer matching agreements, and policy directives; as
well as integration and interpretation of new and emerging authorities, and Agency and OIG responsibilities
under anticipated and current authorities.

                                                     12
OCIG is also responsible for the administration of the Civil Monetary Penalty (CMP) program and advises
the OIG on investigative procedures and techniques, as well as on the legal implications of audit and
investigative affairs.

Office of External Relations

The Office of External Relations (OER) disseminates information about the OIG’s work to Congress, the
media, and the public. To accomplish this, OER prepares speeches and presentations for OIG executives,
coordinates the OIG presence at both government and public events, publishes a wide variety of
informational materials, prepares the OIG’s Semiannual Report to Congress, and acts as the national voice
of the OIG in the news media. OER also maintains the OIG presence on the Internet, prepares responsive
materials for stakeholders in Congress and throughout government, and supports the other OIG components
with respect to critical external communications, ensuring that the OIG speaks with a single, unified voice.

Office of Investigations

The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud, waste,
abuse, and mismanagement in SSA programs and operations. This includes wrongdoing by prospective and
current SSA beneficiaries and recipients, as well as contractors, third parties, and SSA employees in the
performance of their official duties. This office serves as the OIG’s liaison to the Department of Justice
(DOJ) on all matters relating to the investigation of SSA programs and personnel. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies relating to the integrity of the
Social Security number and threats or assaults against SSA employees or property. Additionally, OI
manages the Digital Forensics Team.

Office of Technology and Resource Management

The Office of Technology and Resource Management (OTRM) provides administrative and management
support to the OIG by providing information resource management; systems security and software
development; and the coordination of budget, procurement, telecommunications, facilities, equipment, and
human resources activities. OTRM also administers the Fugitive Felon Program and the OIG Fraud
Hotline. In addition, OTRM is responsible for strategic planning and organizational performance
management and reporting.




                                                     13
Appendix 2 - OIG Organizational Chart




                             14
